!■

No.

-17 U

Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

In re JOHN H. TODD

PETITIONER

vs.

THE STATE OF OREGON - RESPONDENT

ON PETITION FOR WRIT OF MANDAMUS

KLAMATH COUNTY CIRCUIT COURT Case No. 15CR60238

JOHN H. TODD

P.O. BOX 608

CHILOQUIN, OR. 97624

541-591-9009

QUESTION(S) PRESENTED
1 .

Does Oregon's conflicting statutes on search warrants
that exist between ORS 133.545(5) which requires a fully
trained police officer and ORS 167.345 which allows
non-police officers provide the same level of constitutional
safeguards 'for suspects in a criminal investigation?

2.

If a "confession" can be excluded for lack of
"voluntariness" (Culombe v. Connecticut, 367 U.S. 568)
or "unlawful police conduct" (Lynumn v. Illinois 372 U.S.
528), then can blank surrender forms with coerced signatures
for personal property obtained by law enforcement during
the execution of a search warrant during a criminal
investigation be excluded as evidence as well?

3.

Can statements made while being deposed by an officer's
attorney in which the officer is being sued in federal
court for civil rights violations be used as evidence
by that officer and his attorney, if the plaintiff in that
suit was not informed prior to questioning that the
attorney's clients, the officer and the county he was
employed by, had obtained an Indictment and Arrest Warrant
in state court five months earlier for the plaintiff in
the federal case and the plaintiff was not informed of
the Indictment until another year had gone by and the
federal case was dismissed and the plaintiff was arrested.

y,

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
^ All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
KLAMATH COUNTY CIRCUIT COURT and
DANIEL BUNCH, KLAMATH COUNTY CIRCUIT COURT JUDGE
RELATED CASES
KLAMATH COUNTY CIRCUIT COURT Case No. 15CR60238
State of Oregon v. John H. Todd
KLAMATH COUNTY CIRCUIT COURT Case No. 19CN00212
John H. Todd v. State of Oregon
OREGON COURT OF APPEALS Case No. A171256 (KC 15CR60238)
State of Oregon v. John H. Todd
OREGON SUPREME COURT Case No. S068122 (KC 15CR60238)
State of Oregon v. John H. Todd
U.S. DISTRICT COURT FOR OREGON Case No. 1 :1 5-.CV-1 091 -MC
John H. Todd v. Gale A. McMahon, Klamath County et al.
9th U.S. COURT OF APPEALS Case No. 16-36022 (USDC 1:15-CV-1091)
John H. Todd v. Gale A. McMahon, Klamath County et al.
U.S.. DISTRICT COURT FOR OREGON Case No. 3:19-CV-2029-HZ
John H. Todd v. Donnie Boyd, et al.
9th U.S. COURT OF APPEALS Case No. 21-35243 (USDC 3:19-CV-2029)
John H. Todd v. Donnie Boyd, et al.

)

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

1 3

CONCLUSION

INDEX TO APPENDICES

APPENDIX A

Oregon Court of Appeals/ Order Denying

APPENDIX B

Oregon Supreme Court Denying Petition

APPENDIX C

APPENDIX D

APPENDIX E
APPENDIX F

12

TABLE OF AUTHORITIES

UNITED STATES CONSTITUTION
Amendment IV

Search Warrants

Amendment V

Due Process

Amendment VI

Criminal Prosecutions

Amendment XIV

State Shall Not Deprive Due Process
Or Equal Protection of the Law

JURISDICTION

The jurisdiction of this Court is invoked under the All
Writs Act, 28 U.S.C. § 1651, 28 U.S.C. § 1257 and the courts
appellate jurisdiction over lower court and state court cases
involving U.S. Constitutional issues.

OPINIONS BELOW

Klamath County Cir. Ct. Case No. 15CR60238 Rulings inconclusive

Oregon Court Of Appeals Case No. A171256 Dismissed without review

Oregon Supreme Ct. Case No. S068122 Petition Denied, no comment.

1

STATEMENT OF THE CASE

1.

Petitioner, a disabled army Vietnam veteran retired
and relocated from Sacramento, CA. to Klamath County, OR.
in 2009 with his pets where he purchased a home on 3 1/2
acres.

2.

On June 15, 2015 two individuals dressed as sheriff
deputies, but with no written markings identifying them
demanded entry to the petitioner's property explaining
they had a search warrant and produced a document which
was a search warrant authorizing "any Police Officer in
the State of Oregon" to search the petitioner's home and
to seize property.

3.

During the search of the petitioner's home, personal
property was seized that was particularly described as
things to be seized. However, a similar number of things
were seized that were not particularly described as
things to be seized by Klamath County employee Gale A.
McMahon. Petitioner received no receipts for the seized
property and none of the property was reported to the court
as having been seized by McMahon.

2

STATEMENT OF THE CASE

4.

Gale A. McMahon was : later identif ied as a dog control
officer with no police powers as explained by the Oregon
Attorney General's Office and the Oregon Department of
Public Safety, Standards and Training.

5.

On June 17, 2015 petitioner filed a federal civil
rights complaint in U.S. District Court for Oregon against
Gale A. McMahon and Klamath County, Oregon U.S.D.C. Case
No. 1:15-CV-1091-MC.

6.

On December 31 , 2015 the Klamath County District
Attorney's Office obtained a "Secret Indictment and Arrest
Warrant" for the petitioner based on Officer McMahon's
testimony. The Arrest Warrant was not executed until
June 9, 2017, 18 months later.

7.

On May 8, 2016, Officer Gale McMahon's attorney deposed
petitioner during a Deposition in petitioner's federal
law suit, U.S. District Court for Oregon Case No.
1:15-CV-1091-MC extensively concerning the events of June
15, 2015 and used the results of that questioning of
the petitioner in the federal case against the petitioner.

3

STATEMENT OF THE CASE

8.

Petitioner was not informed by authorities of the
Indictment and Arrest Warrant obtained on December 31,
2015 until June 9, 2017 nor did Officer McMahon through
his attorney inform the petitioner and his limited scope
attorney for the deposition prior to questioning on May
8, 2016 that there existed an arrest warrant of which
Officer McMahon and his attorney Gerald Warren were fully '
aware of.

9.

As the petitioner had not been arrested on June 15,
2015 nor was there any record of court proceedings against
the petitioner, petitioner filed several lav; suits in state
and federal court attempting to locate and recover the
personal property officer McMahon had seized which was
later acknowledged by the Klamath County District Attorney
that McMahon had disposed of the property seized without
court authority, orders or due process.

10.

During the 2 years following the execution of the
search warrant which included the 18 months in which
there existed an Indictment and Arrest Warrant for the
petitioner, petitioner was in the area, appeared in
several civil courts including federal and state, and was

4

STATEMENT OF THE CASE

in communication with law enforcement departments across
the State of Oregon requesting assistance in locating his
personal property and an investigation of Officer McMahon
for failing to comply with Oregon Statutory Law relating
to Search and Seizures in Oregon.

11 .

On April 20, 2017 the petitioner was allowed to
depose Officer McMahon by Multnomah County Circuit Court
Judge jerry Hodson at the Klamath County Government
Building, across the street from the Klamath County Court
House and offices of the Klamath County District Attorney
where there existed an active Indictment and Arrest Warrant
for the petitioner.

12.

On June 5, 2017 the petitioner and a friend met with
with an investigator with the Oregon Department Of Public
Safetyifollowing conversations with an investigator with
the Oregon Department of Justice over the contents of
McMahon's Deposition and in which they received copies.

13.

Following those meetings in which a suggestion was
made that copies of McMahon's deposition and Declarations
in state and federal court along with a request for an

5

v-

STATEMENT OF THE CASE

investigation of McMahon be forwarded to the Klamath
County District Attorney which was served on June 9, 2017
by U.S.P.S. Certified Mail, the petitioner was placed under
arrest by a Klamath County Circuit Judge on June 9, 2017.

14.

Petitioner retained an attorney from the Portland,
Oregon area with excellent trial experience who then filed
Motions including a Motion to Suppress Evidence with a
request for an Evidentiary Hearing. The Klamath County
Circuit Court scheduled several Evidentiary Hearings but
then canceled them. As a result the court never held the
hearing or ruled on the Motion to Suppress Evidence.

15.

On Monday, October 22, 2018 petitioner appeared in
court at the Klamath County Court House for a trial
readiness hearing with defense attorney appearing by
phone. The court room v;as packed, noisy and the petitioner
who had a diagnosed hearing lose by the Veterans
Administration couldn't hear or understand‘the contents
of the conversations. At some point there was an indication
that the petitioner could leave with a comment that its
"like a traffic ticket" by the judge.

6

V

''

STATEMENT OF THE CASE

16.

Following the hearing on October 22, 2018 in which
it appears all the criminal charges against the petitioner
had been dismissed, petitioner's attorney filed a Motion
for Return of things seized specifically describing the
personal property that McMahon had seized that were not
described by the court as things to be seized.

17.

Following the filing of the Motion to Return Property
by petitioner's attorney, there was no opposition filed
by the state or hearing set by the court and on December
18, 2018 Klamath County Circuit Judge Dan Bunch signed
an Order to Return those things to the petitioner.

18.

Following attempts by the petitioner and petitioner's
attorney to collect from the state those things seized
which resulted in failure, on January 7, 2019 a Motion
for Show Cause and a Motion for Sanctions/Contempt against
the State of Oregon was filed on behalf of the petitioner.

19.

On January 17, 2019, petitioner's attorney filed a
second Motion for the Return of Things Seized which
described the personal property which the search warrant

7

STATEMENT OF THE CASE

had actually described as things to be seized and a
combined hearing was held before Circuit Judge Bunch on
May 9, 2019.

On May 9, 2019 Judge Bunch heard arguments from the

20.

state's attorney, Klamath County District Attorney in
which she accused petitioner and his attorney of filing
a

false motion to obtain the return of property that never

existed and then offered to the court surrender forms for
the things seized that were addressed on the Second Motion
to Return Things.

21 .

The district attorney then had Gale McMahon sworn
and who then testified that he had not seized any of the
things Ordered returned, and as for the second motion,
he had obtained surrender forms for all of those things.

,22.

Petitioner's attorney then argued that those surrender
forms at issue were covered by the Motion .to Suppress which
he had filed and which the state had filed no response
to, and second his client had witnessed those things being
seized.

8

STATEMENT OF THE CASE

23.

Judge Bunch issued an Opinion Letter the next day
DENYING the Motion for Sanctions as there was no record
of the things Order Returned and did not address the second
Motion to Return Things, the surrender forms or the Motion
to Suppress which Judge Bunch had never addressed.

24.

An Appeal was filed with the Oregon Court of Appeals
which was Dismissed as the Oregon Supreme Court had ruled
in similar cases Opinion Letters were not final Orders.

25.

A complaint was filed with the Oregon State Bar against
the Klamath County District Attorney for making false
statements, entering false evidence and having a witness
testify that she knew or should have known was going to
commit perjury based on her office's possession of Gale
McMahon's Deposition since June 9, 2017 in which he had
admitted to seizing the property ordered returned.

26.

The Klamath County District Attorney submitted a
response to the Oregon State Bar on July 23, 2019
in which she admitted when confronted with Gale McMahon's
Deposition that her witness had made several "misstatements
of material facts" during the hearing of May 9, 2019.

9

STATEMENT OF THE CASE

27.

The district attorney further claimed she had never
seen the Deposition before the hearing on May 9, 2019.
She did admit that there were "inconsistencies" with
McMahon's testimony which contained

"misstatements of

material facts" which he clearly knew were not true.
She further admitted that her statements in court were
not truthful but only because she had relied on her
witness and his statements and that the property ordered
returned did exist and that McMahon had seized it and that
his statements concerning the surrender forms were not
truthful as well.

27.

A Motion before the court for a new hearing had been
filed by petitioner on June 6, 2019 but was never addressed
by Judge Bunch who quietly closed the case in September
2019 without notice to the petitioner.

28.

Petitioner filed a federal civil rights claim in U.S.
District Court for Oregon on December 19, 2019 concerning
the due process violations and the deprivation of property
along with a Notice of Removal. The case was dismissed
March 29, 2021 and appealed to the 9th Circuit Court of
Appeals on March 31, 2021

10

V

STATEMENT OF THE CASE

29.

A Petition for a Writ of Mandamus was filed in the
Oregon Supreme Court on November 23, 2020 for an Order
to compel the Klamath County Circuit Court to address the
unresolved motions. The Supreme Court Denied the petition
on January 21, 2021.

30.

At this time, 6 years after the petitioner's personal
property had been seized by "special deputy" McMahon, none
has been returned or accounted for. Many of the legal
remedies and due process procedures that the petitioner
should have been entitled to have been denied by the State
of Oregon without explanation or recourse.

11

REASONS FOR GRANTING THE PETITION
A petition for Writ of Mandamus has been submitted to the
court based on the petitioner's clear right to relief, the State
of Oregon's failure to perform duties or acts which it has a
clear duty to provide or perform and by the state's highest
court's failure to act, the petitioner has no other remedy
available.

In 2015, the State of Oregon commenced a criminal action
against the petitioner and his property. There were and are
specific requirements as set forth in the U.S. Constitution,
Oregon Statutory Law and U.S. Supreme Court rulings that governed
the actions of the law enforcement officers, the prosecutors
and the state courts.

The State of Oregon, by intentionally depriving the
petitioner of those constitutional and statutory rights which
included depriving the petitioner of property without due process
and the state courts refusal to provide those constitutional
rights which the petitioner has a clear right to, the petitioner
has no other remedy available.

Thereby, the petitioner prays that the court will grant
the relief sought in an Order to the State of Oregon to provide
those constitutional rights the petitioner is entitled to.

12

CONCLUSION

For all the reasons set forth in the .foregoing Statement
of the Case, the petition for writ of mandamus should be granted.

Respectfully submitted,

Date:

I3

